U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




        National Telecommunications
      and Information Administration

                 Louisiana Public Safety
                           Interoperable
             Communications Grant PSIC
             Award No. 2007-GS-H7-0014


                                Final Audit Report
                          No. DEN-19427/July 2009




    FOR PUBLIC RELEASE


                  Denver Regional Office of Audits
                               Report In Brief
                                           U.S. Department of Commerce Office of Inspector General
                                                                  July 2009



 Why We Did this Review National Telecommunications and Information Administration
On September 30, 2007, the
National Telecommunications
and Information Administration      Louisiana Public Safety Interoperable Communications
(NTIA) awarded a $19,672,287
Public Safety Interoperable
                                    Grant PSIC Award No. 2007-GA-H7-0014 (DEN-19427)
Communications (PSIC) grant to
the state of Louisiana to enhance   What We Found
interoperable emergency com-
munications. NTIA required a
minimum 20 percent matching         Our audit covered the award period of October 1, 2007, through December 31, 2008, during
share from nonfederal sources for   which time GOHSEP claimed total costs of $7,749,964. In general, we found GOHSEP to be
the acquisition and deployment      in compliance with requirements and on track to complete the project on time.
of communications equipment,
and management and adminis-         Specifically, GOHSEP has
tration costs. The award period
runs from October 1, 2007, to           •	 prepared an investment justification describing how the grant funds would be used
September 30, 2010, by which               to improve interoperable communications and ensure interoperability with other
time all funds must be expended.           public safety agencies. It anticipates completing all investments on schedule by the
The governor of Louisiana
                                           September 30, 2010, PSIC program deadline;
designated the Governor’s Office
of Homeland Security and Emer-
                                        • 	 met the minimum 20 percent matching share requirement in place from
gency Preparedness (GOHSEP)
as Louisiana’s state adminis-               nonfederal sources for acquiring and deploying interoperable equipment, and
trative agency to apply for and             managing and administering the projects, as required by The Digital Television
administer PSIC funds.                      Transition and Public Safety Act, the PSIC Program Guidance and Application Kit,
                                            and the award’s special conditions;
We audited costs claimed by
GOHSEP to determine whether             • 	 complied with grant terms and conditions by improving the timeliness of its
the recipient complied with NTIA            financial reporting, complying with the cash drawdown requirement of drawing
PSIC grant guidelines and the               down funds 30 days prior to expenditure or a disbursement, and complying
Department of Homeland Secu-                with the 80 percent pass-through requirement by passing through $16.7 million,
rity (DHS) award terms and                  about 85 percent, of the $19.7 million of PSIC federal funds to 64 parishes; and
conditions.
                                        • 	 claimed costs of $7,749,964 in its December 31, 2008, financial status report, which
 Background                                 were determined reasonable, allowable, and allocable according to PSIC grant
The Digital Television and Public           regulations.
Safety Act of 2005 authorized
NTIA, in consultation with the
                                  What We Recommended
DHS, to implement the PSIC
program—a $1 billion one-time,
formula-based matching grant      We made no formal recommendations in our report, but did suggest ways to further enhance
program intended to enable        internal controls:
public safety agencies to estab-
lish interoperable emergency           •	 During our fieldwork, we recommended that GOHSEP’s interoperability program
communications systems using               office record the matching share in its grant management system. (This recommen-
reallocated radio spectrum.                dation was implemented prior to the end of our fieldwork.)
The Implementing Recommenda-
                                        • 	 Although our review of GOHSEP’s financial status reports determined two of five
tions of the 9/11 Commission Act
of 2007 requires the Commerce
                                            reports were not submitted within the required 30 days of the end of the quarter,
Inspector General to conduct                its last three financial status reports were submitted in a timely manner. We
financial audits, over 4 years,             encourage GOHSEP to continue this pattern of timely financial reporting.
of a representative sample of
at least 25 states or territories
receiving PSIC grants. The Loui-
siana grant program is our first
audit under this requirement.
                                                     UNITED STATES DEPARTMENT OF COMMERCE
                                                     Office of Inspector General
                                                     Washington, D.C. 20230

JUl 2 4 2009


MEMORANDUM FOR:              Anna M. Gomez
                             Deputy Assistant Secretary for Communications
                             and Information
                             National Telecommunications and Information Administration



FROM:                         r. Brett M. Baker
                             Assistant Inspector General for Audit

SUBJECT:                     Final Audit Report No. DEN-19427
                             Auditee: Louisiana Governor's Office of Homeland Security
                             and Emergency Preparedness
                             PSIC Award No. 2007-GS-H7-0014

Attached is a copy of our final audit report of the Louisiana Public Safety Interoperable
Communications (PSIC) award. Since there are no recommendations in the audit report,
no further action is needed and an agency Audit Resolution Proposal is not required. A
copy of the report will be posted on OIG's Web site pursuant to section 8L of the
Inspector General Act of 1978, as amended.

If you have any questions regarding this report, please call John S. Bunting, our Denver
regional inspector general for audits, at (303) 312-7650 and reference the final audit report
number above in any related correspondence.


Attachment


cc:    Milton Brown, NTIA audit liaison
       Kathy Smith, NTIA chief counsel
       Laura Pettus, PSIC program manager
                                                     UNITED STATES DEPARTMENT OF COMMERCE
                                                     Office of Inspector General
                                                     Washington. D.C. 20230




 JUL 2 4 2009


Mr. Brant Mitchell
Assistant Deputy Director
Interoperability
Louisiana Governor's Office of Homeland Security and Emergency Preparedness
7667 Independence Boulevard
Baton Rouge, LA 70806

Dear Mr. Mitchell:

Enclosed is a copy of final audit report DEN-19427, prepared by our Denver Regional
Office concerning the Public Safety Interoperable Communications (PSIC) grant awarded
to your agency (award number 2007-GS-H7-0014) by the National Telecommunications
and Information Administration (NTIA).

Your response to the draft audit report has been incorporated into the final report. Since
there are no recommendations in the final report, no further action is needed.

We appreciate the cooperation and courtesies extended by you and your staff during the
audit. The report, along with your response, will be posted on OIG's Web site pursuant to
section 8L of the Inspector General Act of 1978, as amended.




Assistant Inspector General for Audit

Enclosure

cc: Laura M. Pettus, NTIA PSIC program manager
    Carolyn P. Dunn, DHS/FEMA Grant Programs Directorate
    Steven 1. Theriot, Louisiana legislative auditor
                                                     UNITED STATES DEPARTMENT OF COMMERCE
                                                     Office of Inspector General
                                                     Washington. D.C. 20230




 JUL 2 4 2009



Mr. W. Ross Ashley
Assistant Administrator
Grant Programs Directorate
FEMA
500 C Street, S.W.
Washington, D.C. 20472-3615

Dear Mr. Ashley:

Enclosed is our final audit report (DEN-19427) regarding Public Safety Interoperable
Communications (PSIC) grant award number 2007-GS-H7-0014, which was awarded by
the National Telecommunications and Information Administration (NTIA) to the
Louisiana Governor's Office of Homeland Security and Emergency Preparedness.

A copy of the report will be posted on OIG's Web site pursuant to section 8L of the
Inspector General Act of 1978, as amended.

If you have any questions regarding this report, please call John S. Bunting, our Denver
regional inspector general for audits, at (303) 312-7650 and reference the final audit report
number above in any related correspondence.




~*~~
Dr. Brett M. Baker
Assistant Inspector General for Audit

Enclosure

cc: Richard L. Skinner, DHS inspector general
    Carolyn Dunn, DHS/FEMA Grant Programs Directorate
    Bradley A. Shefka, DHS audit liaison
    Gina Norton, FEMA audit liaison
    Penny McCormack, FEMA audit liaison
    Mildred Lloyd, DHS/FEMA Grant Programs Directorate audit liaison
    Mike Siviy, DHS OIG Grants Management
U.S. Department of Commerce                                                                                 Final Report DEN-19427 

Office of Inspector General                                                                                               July 2009
 



                                                                CONTENTS


Introduction......................................................................................................................... 1
  

Findings and Recommendations ......................................................................................... 2
  

   I.      Investment Justification’s Individual Investments Are on Schedule .......................2
  

   II.  GOHSEP Met Minimum 20 Percent Matching Share Requirement .......................5
  

   III.  GOHSEP Has Complied with Grant Terms and Conditions ...................................6
  

         A.  GOHSEP Has Improved the Timeliness of Financial Reporting........................ 6
  

         B.  GOHSEP Complied with Cash Drawdown Requirement................................... 6
  

         C.  GOHSEP Complied with 80 Percent Pass-Through Requirement ..................... 7
  

   IV.  Reasonable and Allowable Costs Were Claimed.....................................................7
  

   V.  Follow-Up on Prior Audit Recommendations .........................................................8
  

   VI.  GOHSEP Best Practices ..........................................................................................9
  

Appendix A: Objectives, Scope, and Methodology.......................................................... 12
  

Appendix B: Summary of Source and Application of Funds ........................................... 14
  

Appendix C: Summary of Financial/Compliance Audit ................................................... 15
  

Appendix D: Recipient Response ..................................................................................... 16
  

U.S. Department of Commerce                                                           Final Report DEN-19427 

Office of Inspector General                                                                         July 2009



                                               INTRODUCTION
 


On September 30, 2007, the National
Telecommunications and Information                                   Public Safety Interoperable 

                                                                   Communications Grant Program 

Administration (NTIA) awarded a
$19,672,287 Public Safety Interoperable                      The Digital Television and Public Safety Act of
Communications (PSIC) grant to the                           2005 authorized NTIA, in consultation with
state of Louisiana to enhance                                DHS, to implement the PSIC program─a $1
interoperable emergency                                      billion one-time, formula-based matching grant
                                                             program intended to enable public safety
communications. NTIA required a
                                                             agencies to establish interoperable emergency
minimum 20 percent matching share, or                        communications systems using reallocated
$4,833,072, from nonfederal sources for                      radio spectrum.
the acquisition and deployment of
communications equipment, and                                NTIA signed a memorandum of understanding
                                                             with DHS, under which DHS oversees and
management and administration costs.
                                                             administers the PSIC program.
The award period runs from October 1,
2007, to September 30, 2010, by which                        The Implementing Recommendations of the
time all funds must be expended.                             9/11 Commission Act of 2007 requires the
                                                             Commerce Inspector General to conduct
                                                             financial audits, over 4 years, of a
The governor of Louisiana designated
                                                             representative sample of at least 25 states or
the Governor's Office of Homeland                            territories receiving PSIC grants. The
Security and Emergency Preparedness                          Louisiana grant program is our first audit
(GOHSEP) as Louisiana's state                                under this requirement.
administrative agency (SAA) to apply
for and administer PSIC funds 1 .

In October 2008, we initiated an audit of costs claimed by GOHSEP to determine
whether the recipient complied with NTIA PSIC grant guidelines and the
Department of Homeland Security (DHS) grant special conditions. The audit
covered the award period of October 1, 2007, through December 31, 2008, during
which time the recipient claimed total costs of $7,749,964. In general, we found the
recipient to be in compliance with requirements and on track to complete the project
on time.




1
  The PSIC program requires the governor of each state and territory to designate an SAA to apply and administer
PSIC funds. Administrative agencies are required to pass through no less than 80 percent of the total award amount
to local or tribal governments or authorized nongovernmental public safety agencies, unless the local entity opts, via
written agreement, to have the state agency retain and spend the funds on its behalf. Grantees must meet a 20
percent nonfederal match for acquisition and deployment.


                                                     1                                                       

U.S. Department of Commerce                                     Final Report DEN-19427 

Office of Inspector General                                                   July 2009



                               FINDINGS AND RECOMMENDATIONS
 


I. Investment Justification’s Individual Investments Are on Schedule

GOHSEP prepared an investment justification, as instructed in NTIA’s PSIC
Investment Justification Reference Guide, describing how the grant funds would be
used to improve interoperable communications and ensure interoperability with
other public safety agencies. The investment justification described three individual
investments (see table 1) that would achieve meaningful and measurable
improvements in interoperability and fill gaps in the statewide communications
interoperability plan.

                      Table 1. Investment Justification and Funding

                                                PSIC
    PSIC Investment Justification               Funds        Nonfederal      Total
                                               Awarded         Match
           Portfolio Summary
1. Expansion of the Statewide Project          $10,082,119    $2,483,030   $12,565,149
25 (P25) System Infrastructure
Network
2. Expansion of P25 Users Through                7,000,000     1,712,500     8,712,500
Acquisition of Subscriber Units and
Consoles
3. Emerging Technologies – Internet              2,000,000      490,000      2,490,000
Protocol-Based Broadband Mesh
Network
Management and Administration                      590,168       147,542       737,710
Total                                          $19,672,287    $4,833.072   $24,505,359

Source: GOHSEP investment justification


The PSIC program requires investment justifications to include plans for establishing
a strategic technology reserve (STR) of interoperable communications equipment pre-
positioned for immediate deployment during emergencies or disasters. States were
permitted to request a waiver for this requirement if they could demonstrate they
already had such a reserve or that other PSIC project proposals represented a higher
priority for public safety communications. GOHSEP was able to demonstrate it had
STR capability and requested a waiver, which NTIA approved. On July 24, 2008,
NTIA approved its investment justification. GOHSEP management anticipates
completing all three investments by the September 30, 2010, PSIC program deadline.
Since GOHSEP is making satisfactory progress toward completing its individual
investments, we are not making any recommendations.



                                           2                                    

U.S. Department of Commerce                                                           Final Report DEN-19427 

Office of Inspector General                                                                         July 2009



Investment 1: Expansion of the Statewide P25 System Infrastructure
Network
            What Is P25?
                                           This investment has two projects. The first project
 Project 25 (P25) is a set of national     will expand the existing P25 system infrastructure
 standards for manufacturing               by procuring 22 additional 700MHz voice repeaters
 interoperable, digital, two-way           to provide communications coverage in central and
 wireless communications products.
 Radio equipment that meets P25 
          northern Louisiana.
 standards can communicate with any 

 other P25 system, regardless of 
     GOHSEP has purchased and received all 22
 vendor, enabling users of different
 systems to talk via direct radio 
    repeaters. Nineteen were installed and operational
 contact.                              as of December 31, 2008. The Federal         

                                       Communications Commission issued special            

  Source:
  www.project25.org/modules.php?name=C temporary authorization licenses for the sites
  ontent&file=viewarticle&id=3         covered by the voice repeaters and all other sites on
                                       the 700MHz system. The remaining repeaters are
scheduled for completion by June 30, 2009, giving Louisiana 95 percent reliability
for P25 portable radio coverage in its southern parishes and 95 percent mobile radio
reliability in the central and northern parishes.

The second project is for constructing a new tower in Jefferson Parish to enhance
interoperable communications infrastructure for Jefferson, Plaquemines, Saint
Bernard, and Orleans parishes, and thus greatly expand user access. During our
fieldwork, we were informed that Jefferson Parish was waiting for bids to construct
the tower, which will be located in New Orleans East, and for NTIA approval of the
programmatic environmental assessment. Though the project is on schedule for the
PSIC program 2010 completion deadline, significant delays in NTIA approval could
derail its progress.




          Proposed site for Jefferson Parish PSIC Communications tower (superimposed in white outline)




                                                    3                                                    

U.S. Department of Commerce                                   Final Report DEN-19427 

Office of Inspector General                                                 July 2009



Investment 2: Expansion of P25 Users Through Acquisition of Mobile
Radios and/or Dispatch Consoles

Louisiana issued $7 million in PSIC subgrants to 64 parishes and state agencies for
the purchase of portable or mobile 700MHz radios and/or dispatch consoles. The
subgrantees are using contracts to procure this equipment and expect to complete
all procurements by December 2009.

Investment 3: Emerging Technologies Internet Protocol-Based Broadband
Mesh Network

This investment will provide Louisiana with a dedicated and secure 802.11x radio
broadband public safety network. GOHSEP is reviewing various vendor products
and plans to issue a request for proposal in July 2009, with anticipated completion
of the entire project by March 2010.




                                      4                                       

U.S. Department of Commerce                                  Final Report DEN-19427 

Office of Inspector General                                                July 2009



II. GOHSEP Met Minimum 20 Percent Matching Share Requirement

GOHSEP had the required minimum 20 percent matching share in place from
nonfederal sources for acquiring and deploying interoperable equipment, and
managing and administering the projects, as required by The Digital Television
Transition and Public Safety Act, the PSIC Grant Program: Program Guidance and
Application Kit, and the award’s special conditions.

GOHSEP’s interoperability program office records grant activity in a separate grant
management system from its accounting system. We found that the matching share
was not recorded in this system. During our fieldwork, we recommended that the
interoperability program office record the matching share in its grant management
system, and it implemented the change prior to the end of our fieldwork.

NTIA’s PSIC Grant Program: Program Guidance and Application Kit, section VI
(B), requires the match be expended at the same rate as the federal share. As of
December 31, 2008, GOHSEP had expended $7,749,964 in federal funds, but had
not spent any matching funds. However, in January 2009, GOHSEP provided
documentation that showed the entire cash match required under the award was
fully expended.




                                     5                                       

U.S. Department of Commerce                                           Final Report DEN-19427 

Office of Inspector General                                                         July 2009



III.     GOHSEP Has Complied with Grant Terms and Conditions

A. GOHSEP Has Improved the Timeliness of Financial Reporting

We reviewed the financial status reports (Standard Form-269) GOHSEP filed for
the period October 2007 through December 2008, and found that two of five reports
were not submitted within the required 30 days of the end of the quarter (see table
2). The PSIC Program Guidance and Application Kit states that these reports must
be submitted for every quarter during which the award is active, including partial
quarters and periods that have no grant activity. Louisiana submitted its last three
financial status reports in a timely manner. We encourage GOHSEP to continue
this pattern of timely financial reporting.

                       Table 2. Financial Status Report Submissions

                                                 Date Report   Report Due     Days
           Reporting Period
                                                    Filed         Date        Late
         10/1/2007 – 12/31/2007                    2/11/2008    1/30/2008       12
          1/1/2008 – 3/31/2008                      5/6/2008    4/30/2008       6
          4/1/2008 – 6/30/2008                     7/28/2008    7/30/2008       0
          7/1/2008 – 9/30/2008                    10/24/2008   10/30/2008       0
         10/1/2008 – 12/31/2008                    1/16/2009    1/30/2009       0

       Source: GOHSEP Financial Status Reports


B. GOHSEP Complied with Cash Drawdown Requirement


The PSIC Program Guidance and Application Kit also required that funds may only
be drawn down 30 days prior to expenditure or a disbursement. We reviewed
GOHSEP's PSIC cash drawdowns as of December 31, 2008, which totaled
$7,749,964, and found them in compliance.




                                                     6                                

U.S. Department of Commerce                                    Final Report DEN-19427 

Office of Inspector General                                                  July 2009



C. GOHSEP Complied with 80 Percent Pass-Through Requirement

GOHSEP passed through $16.7 million, about 85 percent, of the $19.7 million of
PSIC federal funds to 64 parishes (see table 3).

States are also required to pass through PSIC funds to local applicants within 60
days after the approval of the investment justification. Twenty of the parishes
receiving pass-through funds for the expansion of the P25 system (Investment 1)
requested in writing that the state procure equipment on their behalf and
formalized the arrangement in memorandums of understanding (MOUs).

                           Table 3. Pass-Through of PSIC Funds

                                    Pass-
                    Funds                          Total       PSIC
                                  Through
                    Passed                       Funding       Funds        Total
                                   Funds
                   Through                        Passed      Retained     Federal
                                 Retained by
                      to                        Through to     by the       Funds
                                  State Via
                   Parishes                      Parishes      State
                                   MOUs

Investment 1       $1,200,000      $7,911,185    $9,111,185   $970,933    $10,082,118
Investment 2        5,950,000               0     5,950,000  1,050,000      7,000,000
Investment 3        1,600,000               0     1,600,000    400,000      2,000,000
M&A Costs                                                      590,169        590,169
 Total             $8,750,000      $7,911,185   $16,661,185 $3,011,102    $19,672,287
Percent                    45              40            85         15            100

Source: GOHSEP Documents


Our examination of GOHSEP’s source documents verified the 80 percent pass-
through requirement within 60 days had been met. GOHSEP retained $2.4 million
to complete statewide projects, $.6 million for management and administration
costs, and $7.9 million to make Investment 1 procurements on behalf of the 20
parishes.

IV. Reasonable and Allowable Costs Were Claimed

GOHSEP claimed costs of $7,749,964 in its December 31, 2008, financial status
report. We reviewed the costs claimed and determined they were reasonable,
allowable, and allocable according to PSIC grant regulations. See appendix C for the
details of our analysis.




                                         7                                     

U.S. Department of Commerce                                   Final Report DEN-19427 

Office of Inspector General                                                 July 2009



V. Follow-Up on Prior Audit Recommendations

As part of our audit, we reviewed the results of Louisiana’s OMB Circular No. A-133
audit for the year ended June 30, 2007, and the state auditor’s management letter
to GOHSEP, dated April 9, 2008. Although the PSIC program was not included in
the audit report, we were interested in whether the audit identified any issues that
could have a material effect on the PSIC grant program. We identified three such
issues:

         1.	 Federal reporting requirements. GOHSEP failed to timely submit
             required federal financial reports for other federal grant funds. We
             reviewed GOHSEP's filing of financial status reports for the PSIC
             grant and determined that GOHSEP filed the first two of its five
             financial reports late, but the three most recent reports were filed
             timely.

         2.	 Subrecipient monitoring requirements. GOHSEP did not comply with
             subrecipient monitoring requirements for one of its federal grant
             programs. Management failed to adequately stress the importance of
             obtaining, reviewing, and providing a timely follow-up on OMB
             Circular No. A-133 audits of its subrecipients. We were unable to test
             whether GOHSEP was in compliance with this requirement for PSIC
             subrecipients. Requests for reimbursement from PSIC subrecipients
             began at the end of 2008, and OMB Circular No. A-133 audit reports
             for FY 2008 were not completed by the end of our fieldwork for PSIC
             subrecipients. We were encouraged to see that GOHSEP has a grant
             monitoring protocol in place to determine if audits are scheduled and
             conducted in compliance with OMB Circular No. A-133. The
             monitoring also identified the total federal expenditures for the
             subrecipient for the previous year.

         3.	 Moveable property regulations. GOHSEP did not maintain adequate
             internal control over movable property by not tagging property with
             original acquisition costs of $1,000 or more. We reviewed training
             equipment obtained with PSIC funds and found that it was properly
             tagged. We also reviewed GOHSEP's grant monitoring forms for two of
             its subrecipients receiving PSIC funds. The grant monitoring forms
             addressed the need of inventory tags on equipment.




                                      8                                        

U.S. Department of Commerce                                   Final Report DEN-19427 

Office of Inspector General                                                 July 2009



VI. GOHSEP Best Practices

GOHSEP has a comprehensive policy and procedure in place for monitoring
subrecipients: it conducts “desk” reviews from the office using a checklist to ensure
that all documentation is complete and up-to-date, and that any apparent problems
are addressed. It also visits each parish receiving grant funds every grant cycle to
examine equipment purchases and location, as well as training records. GOHSEP
provided us with documentation for office and on-site monitoring visits made to two
PSIC grant subrecipients.

Louisiana’s investment justification underwent a program and peer review as
required by the PSIC program and was found to demonstrate strong evidence of
close relationships among state and local stakeholders. Reviewers noted that the
investment justification reflected a well-coordinated effort across the state and
strategic program management to support sustainable programs. They described it
as well written and well reasoned, and recommended it as a model for other states.

Generally speaking, GOHSEP’s documentation of PSIC funding and spending was
in very good order, which helped expedite the audit process. GOHSEP’s assistant
deputy director and the communication systems manager for interoperability were
both prepared and well organized. The assistant deputy director gave a
presentation on preparing for a PSIC audit at the DHS 2008 Grant Program
Directorate National Conference on December 16, 2008.




                                       9                                       

U.S. Department of Commerce                                      Final Report DEN-19427 

Office of Inspector General                                                    July 2009



                   SUMMARY RESULTS OF FINANCIAL AUDIT

The results of our interim cost audit for the period October 1, 2007, through
December 31, 2008, (detailed in appendix C) are summarized as follows:

      Federal Funds Disbursed                              $7,749,964
      Costs Incurred                   $7,749,964
      Less: Questioned Costs                    0
      Costs Accepted                   $7,749,964
      Less Matching Share                       0
      Federal Funds Earned                                     7,749,964

      Refund Due the Government                            $           0




                                      10                                         

U.S. Department of Commerce                                   Final Report DEN-19427 

Office of Inspector General                                                 July 2009




                      SUMMARY OF GOHSEP'S RESPONSE 

                           AND OIG COMMENTS
 




GOHSEP stated in its response to our audit report that it immediately implemented
the recommendation to track the required state match in its programmatic
management tool, in addition to tracking it in the state financial system. We were
able to verify this during our fieldwork at GOHSEP and consider this issue
resolved.

GOHSEP also noted that it has instituted internal procedures to monitor
submissions of required federal reports. GOHSEP's initial financial status reports
for reporting its progress for the PSIC program were filed late. Louisiana's last
three reports were filed timely, and the internal control procedure GOHSEP
established to monitor submissions of required federal reports indicates that it has
the proper controls in place to continue to submit timely reports.




                                      11                                      

U.S. Department of Commerce                                   Final Report DEN-19427 

Office of Inspector General                                                 July 2009



           APPENDIX A: OBJECTIVES, SCOPE, AND METHODOLOGY
 


The objective of our audit was to determine whether the Louisiana Governor's Office
of Homeland Security and Emergency Preparedness (GOHSEP) was using its grant
funds in accordance with federal requirements. In particular, we assessed whether
GOHSEP (1) is on track to complete its interoperable communications investments
by September 30, 2010; (2) met the minimum 20 percent match for acquiring and
deploying interoperable communications equipment; (3) claimed reasonable and
allowable costs under the award; and (4) complied with grant terms and conditions.

We selected the state of Louisiana for an audit because it was among the first states
in our representative sample to drawdown PSIC funds as of October 2008.

The audit scope included a review of costs claimed during the award period of
October 1, 2007, through December 31, 2008. We conducted our fieldwork in
October 2008 at the GOHSEP office in Baton Rouge, Louisiana.

To meet our objectives, we did the following:
   •	 reviewed investment documentation and discussed each investment with
      agency officials
   •	 analyzed source documents related to the minimum 20 percent match for
      acquiring and deploying interoperable communications equipment
   •	 traced costs claimed to source documentation
   •	 interviewed GOHSEP officials, including the Louisiana state legislative
      auditor, and reviewed the state's OMB Circular No. A-133 audit report for
      the year ending June 30, 2007
   •	 reviewed pertinent laws, regulations, and guidance (listed below) against
      GOHSEP's PSIC activities and internal controls

We also reviewed the following laws/regulations:
  •	 Section 3006 of the Digital Television Transition and Public Safety Act of
      2005, Public Law 109-171
  •	 Call Home Act of 2006, Public Law 109-459
  •	 Implementing Recommendations of the 9/11 Commission Act of 2007, Public
      Law 110-53
  •	 PSIC Grant Program Guidance and Application Kit, August 16, 2007
  •	 NTIA PSIC Grant Program Allowable Cost Matrix
  •	 NTIA PSIC Grant Program Frequently Asked Questions
  •	 OMB Circular A-87, Cost Principles for State, Local, and Indian Tribal 

      Governments

  •	 OMB Circular A-133, Compliance Supplement, CFDA 11.555;
  •	 DHS Grant Special Award Conditions
  •	 Department of Commerce Financial Assistance Standard Terms and 

      Conditions 



                                      12                                        

U.S. Department of Commerce                                   Final Report DEN-19427 

Office of Inspector General                                                 July 2009



   •	 Department of Homeland Security, Office of Grant Operations, Financial
      Management Guide

We verified the validity and reliability of computer-processed data supplied by
GOHSEP by directly testing data against supporting documentation. Based on our
tests, we concluded the computerized data was reliable for use in meeting our
objectives.

This audit was performed under the authority of the Implementing
Recommendations of the 9/11 Commission Act of 2007, the Inspector General Act of
1978, as amended, and Department Organization Order 10-13, August 31, 2006,
and in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient evidence
to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.




                                      13                                      

U.S. Department of Commerce                                  Final Report DEN-19427 

Office of Inspector General                                                July 2009



        APPENDIX B: SUMMARY OF SOURCE AND APPLICATION OF FUNDS

   LOUISIANA GOVERNOR'S OFFICE OF HOMELAND SECURITY AND 

                 EMERGENCY PREPAREDNESS 

       PUBLIC SAFETY INTEROPERABLE COMMUNICATIONS 

                  GRANT NO. 2007-GS-H7-0014 

          OCTOBER 1, 2007, THROUGH DECEMBER 31, 2008 



                                  Approved                 Receipts &
                                   Budget                  Expenses
                                     (a)                      (b)

SOURCE OF FUNDS:


Federal                          $19,672,287                $7,749,964                  

Nonfederal                         4,833,072                         0


Total                            $24,505,359                $7,749,964



APPLICATION OF FUNDS:

Investment 1                     $12,565,149                $7,594,132
Investment 2                       8,712,500                   147,020
Investment 3                       2,490,000                         0
M&A Costs                            737,710                     8,812

Total                            $24,505,359                $7,749,964



Notes:

(a) The approved budgeted costs are for the period of October 1, 2007, through
September 30, 2010, based on Louisiana's approved investment justification.
(b) The receipts and expenses are for the period of October 1, 2007, through
December 31, 2008.




                                     14                                      

U.S. Department of Commerce                                 Final Report DEN-19427 

Office of Inspector General                                               July 2009



         APPENDIX C: SUMMARY OF FINANCIAL/COMPLIANCE AUDIT

   LOUISIANA GOVERNOR'S OFFICE OF HOMELAND SECURITY AND 

                 EMERGENCY PREPAREDNESS 

       PUBLIC SAFETY INTEROPERABLE COMMUNICATIONS 

                  GRANT NO. 2007-GS-H7-0014 

          OCTOBER 1, 2007, THROUGH DECEMBER 31, 2008 



                                                       Results of Audit
                    Approved         Costs          Costs             Costs
Description          Budget         Claimed       Questioned        Accepted

Investment 1      $12,565,149     $7,594,132                  $0      $7,594,132
Investment 2        8,712,500        147,020                   0         147,020
Investment 3        2,490,000              0                   0               0
M&A Costs             737,710         $8,812                   0           8,812
Total             $24,505,359     $7,749,964                  $0      $7,749,964

Federal Funds Disbursed                        $7,749,964
Costs Incurred                  $7,749,964
Less: Questioned Costs                   0
Costs Accepted                   7,749,964
Less: Matching Share                     0
Federal Funds Earned                            7,749,964

Refund Due the Government                             $0




                                  15                                        

U.S. Department of Commerce                                                        Final Report DEN-19427 

Office of Inspector General                                                                      July 2009



                            APPENDIX D: RECIPIENT RESPONSE
 





     BOBBY JINDAL                 ~tate        of JLouisiana                        MARK   A.   COOPER
        GOVERNOR                                                                         DIRECTOR
                            Governor's Office of Homeland Security
                                              and
                                  Emergency Preparedness                          _ _*'Ii:'E
             June 9, 2009
                                                                                      JUN 11 tw.
             Mr. John S. Bunting, Regional Inspector General for Audits             ~~~
             United States Department of Commerce
             Office of Inspector General
             Denver Regional Office of Audits
             999 18th Street, Suite 765
             Denver, Colorado 80202-2499
             RE: Audit report number Den-194270900001
             Dear Mr. Bunting:
             Louisiana's Governor's Office of Homeland Security and Emergency
             Preparedness (GOHSEP) have experienced many changes as it continues to
             mature as a new stand alone state agency since March 2006. Every audit and
             review provides guidance 10 help GOHSEP meet its goals and objectives in the
             'WOrld of Homeland Security and Emergency Management.                  GOHSEP
             appreciates your office reviewing our processes and procedures in relation to the
             laws, federal regulations, policies and federal state agreements. GOHSEP takes
             our responsibility of grant management, monitoring our applicants and reviewing
             and responding to audit findings very seriously.

             We use audits such as this to help us improve our processes.                The
             recommendations that you have made will be reviewed and implemented. As
             you are aware, GOHSEP immediately implemented the recommendation to track
             the required state match in our programmatic management tool in addition to
             tracking in our state financial system. Additionally, the SF 269, CAPR and BSIR
             reports continue to be completed on time as we have instituted internal
             procedures to monitor submission of required federal reports.

             We 'WOuld like to thank you and your staff for the time you spent with us and for
             the courteous manner in which you conducted this audit. We also appreciate the
             recommendations you discussed with our staff, and will use these as we go
             forward with the grant administration.




      7667 Independence Boulevard' Baton Rouge, Louisiana 70806 • (225) 925-7500 • Fax (225) 925-7501




                                                  16                                                     

U.S. Department of Commerce                                                 Final Report DEN-19427 

Office of Inspector General                                                               July 2009





           John S. Bunting
           Page 2
           June 9, 2009


           I look forward to an open line of communication between our offices to address
           any issues further that may arise. Feel free to contact me at 225-925-7332.

           Sincerely,



           Brant Mitchell



           BM:GAS:cId

           cc:   Laura Pettus, PSIC Program Manager
                 Carolyn Dunn, Grant Programs Directorate
                 Mark Cooper, Director




                                             17                                             

